In the Supreme Court of the United States

No. 19-618

Jon Eric Shaffer,
Petitioner
v.
Commonwealth of Pennsylvania,
Respondent

On Petition for a Writ of Certiorari to
the Court of Pennsylvania

Brief in Opposition; Certificate of Word Count

Undersigned completed a Certificate of Word Count on or about March 12 >
2020. According to undersigned’s assistant, the Certificate of Word Count was sent
to this Court with Respondent’s Brief in Opposition. Based on communication from
the Clerk’s Office of this Court, this Court has not received or has not located the
aforementioned Certificate of Word Count. Due to the coronavirus and undersigned’s
office closing, undersigned cannot access the original Certificate of Word Count.
Based on undersigned’s memory, his assistant’s memory, and undersigned’s review
of a prior draft of the Brief in Opposition, undersigned can certify pursuant to
Supreme Court Rule 33. l(h) that to the best of undersigned’s understanding the Brief
in Opposition contains no more than 4,999 words. Opposing counsel, Amir H. Ali,
Esq., does not oppose this Certificate.

Please accept this Certificate due to the

extreme circumstances surrounding the coronavirus.

Respectfully submitted,
JOSH SHAPIRO
Attorney General
Commonwealth of Pennsylvania

Pa. Office of Attorney General
Criminal Law Division
Appeals & Legal Services Section
16th Floor, Strawberry Square
Harrisburg, PA 17120
(717) 787-6348
Date^ March 17, 2020

/s/ Christopher J. Schmidt
CHRISTOPHER J. SCHMIDT
Deputy Attorney General
Appeals & Legal Services Section
Counsel of Record

